                               ..



Departmentof Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   HOME HEALTH AGENCIES:
 ALTERNATIVE COVERAGE AND
      PAYMENT POLICIES




                smwlcfi
            N             “%
        *$


                $
       i?                      JUNE GIBBS BROWN
       3*                      Inspector General
        %
         %++
           %aa                        MAY 1995
           >                        OEI-12-94-00180
.




                     EXECUTIVE                            SUMMARY

    PURPOSE

    The purpose of this inspection is to provide information to Health Care Financing
    Administration (HCFA) on how selected other payers structure and manage their home health
    benefit.

    BACKGROUND
                           ..                                                 ..
    Title XVIII of the Social Security Act, Section 1861, authorizes Medicare payments for home

    health services under certain conditions. The care must be provided by certified home health

    agencies (HHAs), which may be either freestanding or facility-based. The Medicare home

    health benefit coverage includes the following items and services: 1) part-time or

    intermittent nursing carq 2) physical, occupational, or speech thempy; 3) medical social

    services; 4) part-time or intermittent services of a home health aide; and 5) medical supplies

    other than drugs and biological.


    The HCFA has convened a task force to examine its home health benefit. One of the

    reasons for this examina tion is the significant increase in expenditures in this category of

    service. Between 1988 and 1992, they rose from $2.3 billion to $7.1 billion. During this

    time, the number of Medicare beneficiaries who used these services increased ahnost 65

    percent. The number of services per beneficiary also increased by the same amount.


    We selected twenty thee payers of home health services. Our fd list include fifteen

    nxpondents; three Medicaid agencies; five private insurance companies; five Health

    Maintenance Organizations; the Department of Veterans Affairs (DVA); and the Civilian

    Health and Medical program of the Uniformed Services (CHAMPUS). We conducted

    telephone interviews with each of the ftieen respondents using a focused discussion guide.


    We asked each private payer to describe their policies as a general matter and to reflect in

    their responses what constituted the “rule,” rather than the “exception.” Each offers many

    different products, and their policies can and do differ among their insured population.


    FINDINGS

    Home Health Benefits in Other Health Plans are Generally Structured Similar to
    Medicare’s

    Other payers are similar to Medicate in their criteria for eligibility; requirements placed on
    home health agencies; services covered under their basic home health benefi~ quality
    monitoring processes and how they pay providers.
               Other Plans Approaches to Controlling Home H@th Expenditures are Different from
               Medicare’s

               Other payers differ from Medicare in setting limits on home health benefits or moving mom
               intensive and special needs patients to targeted programs; and in their utilization control
               mechanisms.

               POINTS OF FURTHER ANALYSIS

               The practices of other payers could provide potential ideas for reforming or managing
               Medicare’s home health benefit. We believe that HCFA might study the merits of some of
.. ... .* .-   these approaches .as.it-dekxmines .hmwbestxo cmxm&-utilizatiQQand expenditwes-avhik-    -:-.       ---------
               assuring the appropriate delivery of high quality care to Medicare beneficiaries. Among
               those approaches which might hold promise for Medicare anx

                  �	   Targeting Needs. Rather than a “one size fits all” home health benefit, Me&are
                       might wish to channel different patients into different home health “progmrns” where
                       the benefit could better conform to different patient needs and progmm management.
                       In addition, controls could be designed more effectively.

                 E	    Case Management. Case managers might be particularly appropriate for certain
                       classes of beneficiaries who are expected to require services over a specified period of
                       time (e.g. patients with chronic care needs).

                 �	    Beneficiary Participation. The use of Explanation of Benefits @OBs) (perhaps on a
                       monthly basis to avoid unnecessary administrative burden) and imposition of
                       qxyrmt.s, previously proposed in various legislative initiatives are avenues to
                       increase the beneficiary’s stake in their own health care and identify potential
                       overutilization, abuse or quality problems.

                 F	    Limitations on Coverage. Caps on number of visits allowed each year, or some
                       other kinds of limitations, would not only be consistent with the policies of some
                       other payers but also with Medicare’s own policies with regard to skilled nursing
                       care, hospital benefits, and other categories of service.

               As HCFA considers these ideas, it must struggle with a number of questions, including the
               impact of such changes on beneficiaries. To assist HCFA in answering some of these
               important questions, the Offke of Inspector General is currently engaged in a home health
               initiative to examine payments made to home health agencies on behalf on Medicare
               beneficiaries. This initiative involves the OIG’S investigations, audit, and evaluation staffs.
               Among the upcoming products emanating from this initiative are reports on provider audits
               and validation of claims; the physician’s role in home health services; and an overall
               assessment of payment made to HHAs and the relationship of those payments to HHA
               characteristics, beneficiary characteristics, and other potentially relevant factors.




                                                                ii
          COMMENTS ON THE DRAFT REPORT AND OIG RESPONSE

          The HCFA indicated that the report would be usefid in assessing possible changes to the
          home health benefit. However, HCFA stated that our report appears to assume that other
          agencies are mom effective than Medicare in controlling costs. Further, HCFA pointed out
          that there are no data in the report comparing the average number of visits or expenditures
          per beneficiary. The HCFA speculated that age, health status, and income could explain
          differences in utilization if they exist, as well as plan characteristics and benefit management.

          We appreciate HCFA’s comments. We recognize thut there are no data in the report
          compating the number of visits or expenditures per benej?ciary; however, this was beyond the
.-.   -   WPe of ourinqm’v. Z%?        purpose-of W repro? wvw 10 d~~c~~b~]~w .~~~e~~d-~~m- - .. . . .. ..    --- -=..- ..
          structure and manage their home health hen@ as compared to Medicare. Our anulysis
          indicated that other payers lim”t the benqjit and use a variety of techniques to control
          utilim”on more than Medicare. TWether these techniqws actually result in luwer per capita
          costs is subject to fimther anulysis. It is clear, however, that other payers have many more
          oppo~”ties     to mu.nugem“lization of the bengjit and control costs compared to Medicare
          coverage and payment policies for hone agencies.

          %fill   text of HCFA’s comments can be found in appendix A.




                                                            ...
                                                            lu
                     TABLE                 OF         CONTENTS

                                                                                                     PAGE

EXECUTIVE SUMMARY

INTRODUCTION            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1

FINDINGS      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...3

POINTS OF FUR-                ANALYST::.             : . . . . . . . . . . ..”. .”. . . . . ..’ . ...10

APPENDIX A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..         A-l
                                      INTRODUCTION

        PURPOSE

        The purpose of this inspection is to provide information to Health Care Financing
        Administration (HCFA) on how selected other payers structure and manage their home health
        benefit.

        BACKGROUND

,.. .   M&i&m?                             . . . .... ..   ..             ..   -..— ---   -.   t . . .. .. . ._. .,- .. ...=..   *%   .,*




        Title XVIII of the Social Security Act, Section 1861, authorizes Medicare payments for home
        health services under certain conditions. The care must be provided by certified home health
        agencies (HHAs) which may be either fnxxdanding or facility-based. They can be voluntary
        not-for-profit, proprietary or governmental in nature.

        Virtually all Medicare reimbursements for home health care are made under Part A, (hospital
        insurance). Beneficiaries pay no coinsurance or deductibles for home health care covered
        under Part A or Part B, except for durable medical equipment (DME) fimished by a home
        health agency, nor do they receive an Explanation of Medicare Benefits (EOMBS). Home
        health care may be covered under Part B (supplementary medical insurance) if a beneficiary
        has only Part B coverage. ClaimS are submitted to one of nine fiscal intermediaries known
        as Regional Home Health Intermediaries.

        The Medicare home health benefit coverage includes the following items and services:
        1) part-time or intermittent nursing cae; 2) physical, occupational or speech therapy;
        3) medical social services; 4) part-time or intermittent services of a home health aide; and
        5) medical supplies other than drugs and biological.

        TO qualify for home health benefits under either Part A or Part B of Me&are, a beneficiary
        must: be considered homebound, except to receive services that due to special equipment
        needs, can not be provided in the patient’s home; need care on an intermittent basis; and
        receive services under a plan of cam established and periodically reviewed by a physician.
        Skilled care includes: skilled nursing services, physical therapy, or speech therapy services.
        In addition, only after the patient receive one of these qualifying services may he or she then
        receive the services of an occupational therapist, a medical social worker, or a home health
        aide. Home health aides provide hands-on personal care of beneficiaries which must be
        necessary to the treatment of the beneficiary’s iUness or injury. Home health aide services
        include: 1) personal care services, 2) simple dressing changes, 3) assistance with some
        medications, 4) activities to support skilled therapy services, and 4) routine care of prosthetic
        and orthotic devices. A beneficiary whose sole need is for custodial care does not qualify.

        Medicare beneficiaries who are eligible for home health services may receive care as long as
        it is reasonable and necessary; there are no limits to the number of visits or length of


                                                                1
     coverage. Medicare does not require copayments or deductibles for home health care, except
     for dumble medical equipment. b addition, the COUrtShave limited Medicare’s ability to
     deny home health coverage. In the case, Dwzan VS. su~van, Medic-am Was hlStfUCtedthat
     suftlcient evidence in the medical record was necessary to deny a claim. This high standard
     has led to a decrease in home health denials. TO ensure that payments for home health
     services are appropriate, Medkme requires intermediaries to conduct post-payment reviews
     of home health claims and monitor those providers that appear to have high utilization rates
     that are unexplainable.

     Medicare reimburses home health agencies on a reasonable cost basis (subject to limits) for
     costs related to visits for patient care. “Visit costs” include all incurred costs related to
,-   mak!ng th? visits such. as pmpaxatiawfor the visits, tekphone calls, CQnfbmrxwsabout the        , T~’   s -~
     patient and maintaining patient records.

     The Medicare program addresses the quality of home health services through: annual
     beneficiary satisfaction surveys, certifkat.ion requirements for home health agencies, and,
     agency surveys conducted at least once every 15 months.

     The HCFA has convened a task force to examine its home health benefit. One of the
     reasons for this examination is the signifkxmt increase in expenditures. Between 1988 and
     1992, they rose from $2.3 billion to $7.1 billion. During this time, the number of Medicare
     beneficiaries who used these services increased almost 65 percent. The number of services
     per beneficiary also increased by the same amount.

     METHODOLOGY

     We selected twenty-three payers of home health services. We made initial telephone calls to
     verify that those we planned to interview provided such services. Our final list includes
     ftieen respondents; three Medicaid agencies; five private insurance companies; five Health
     Maintenance Organizations; the Department of Veterans AITairs (VA); and the Civilian
     Health and Medical Program of the Uniformed Services (CHAMPUS). We conducted
     telephone interviews with each of them using a focused discussion guide and later followed
     up to collect any missing data.

     We asked each private payer to describe their policies as a geneml matter and to reflect in
     their responses what constituted the “rule,” rather than the “exception.” Each offers many
     different products, and their policies can and do differ among their insured population.

     We also collected information from ofiicials in Australia and the province of Ontario,
     Canada. Because of the basic dissimilarity in health care systems between the United States
     and these countries, a strict comparison is not useful. Instead, we are providing a
     description of our discussions with those oftlcials under separate cover to HCFA.




                                                    2

                                     FINDINGS

HOME HEALTH BENEFITS IN OTHER HEALTH PLANS ARE GENERALLY
STRUCTURED SIMILAR TO MEDICARE’S

Other payers are similar to Me&are in their criteria for eligibility; the requirements they
place on home health agencies, the services covered under their basic home health benefit,
their quality monitoring processes, and how they pay providers.

Other Payers Have Similar Eligibility Requirements to Medicare.
                                                    ,,      . .. ... +-w------. --w. ..        -. -   -   -
Medicare’s requirements for eligibility are similar to those used by the private payers we
interviewed, as demonstrated below.

              CONDITIONS OF COVERAGE FOR HOME HEALTH BENEFIT
                            Medicare and Private Payers


                                          MEDICARE	                  PRIVATE PAYERS
                                                                     (Total = 10)

I Homebound                         1X1                                     6
I Prior Hospitalization             I                       I               1

 Requk    skilledcam                           x                            9
                                    1                       I
 Intermittent Care                  1X1                                     9

Like Medicare, six of the ten private payers have a homebound requirement. The four
private payers who do have some requirement that patients be confiied to the home, also
consider different patient needs and circumstances when malting coverage decisions. For
example, patients with AIDS may be employed full-time and still receive home health care
benefits.

Similarly, nine of the ten private insurers do not require prior hospitalization in order to
receive home health benefits. These same nine private payers require that skilled care be
needed as a precondition for receiving other home health services.

One plan mandates that a completed home health care plan be completed within seven days
following the end of a hospital confinement, and that the care be for the same or related
condition which caused the hospitalization. Rather than having an explicit skilled care
requirement, this plan requires that the physician certifj that, in the absence of the home
health care services, the proper treatment of the injury or iUness would require continued
hospitalization.




                                                3

All but one of the private payers require that care be provided to patients on an intermittent
basis.

The three Me&aid programs we interviewed have slightly less restrictive eligibility
requirements. Two of the the do not require that patients need skilled care or rehabilitative
therapy in order to receive the benefit, nor do they have a strict homebound requirement.

The U.S. Department of Veterans Affairs (VA) and CHAMPUS are also slightly less
restrictive than Medicare. Unlike Medicare, they do not require that patients be homebound
in order to be eligible for home health services. The VA does not set an explicit
“intermittent” standard for its beneficiaries; care may be authorized as long as it is necessary
or appropriate for effeetive andeccmmnieal treatment. .-TIE5L VA allows care @be-provided --       =------ -
on a daily basis as long as the total costs in one month do not exceed the costs that would
have been incurred in an institution. The CHAMPUS program does require the care be
intermittent to qualify for its basic home health benefit. Both progmms require that patients
need skilled care in order to be covered.

Other Payers Place Similar Requirements on Home Health Agencies for Care to be
Covered.

All of the private payers requi.m a formal plan of care established for the home health care
patients. Most payers use plans of care similar to Medicare’s, though there are some
variations. One indemnity plan, for example, uses a formal plan of care for catastrophic
cases only.

All three Medicaid agencies require use of a formal plan of cam which must be ordered and
signed by a physician.

The VA requires a physician’s statement be completed in order for care to be authorized.
Such a statement must include the specific medical services required, the duration authorized,
frequency of visits by providers, and estimated total monthly costs of providing home health
services. The VA’s physicians (either employed by the VA hospital or with staff privileges)
are responsible for ordering the care and following the patient’s progress. Similarly,
CHAMPUS requires that services be ordered by a physician and have a treatment plan
describing the frequency and duration of thempies, procedures and medication, and the
prognosis for the patient.

Most payers require that HHAs be Medicare-certifkd,      or accredited in lieu of certilkation,
in order to receive payment.

Benefit Packages Offered by Other Payers are Similar to Medicare’s.

Genemlly, services covered by other payers as part of their basic benefit packages are similar

to Medicare’s, including coverage of skilled nursing care, therapy services, and aide

services. Only two differences emerged:




                                                4

       ��     A number of other payers also offer a drug benefit in conjunction with their
              home health benefit or as a general benefit in their insurance prugram. The
              availability of this benefit in the private market might vary from employer to
              employer. For Medicaid, prescription drug coverage is an optional offering
              but is currently included in all State Medicaid programs.

       ��     The VA does not cover aide services as part of its basic home health benefit,
              which is limited to medical services. The VA has determined that
              homemaker, domestic-type services (such as house cleaning, meal preparing,
              companion) are not medical services and cannot be authorized under its home
              health program. Vetemns may qualify for another program which would
              provide those servkes.                . . .----- .. ...                 .     .

Like Medicare, other payers rely on beneficiary surveys, complaint programs and
provider audits and reviews to ensure quality; none reported using outcome measures.

Like Medicare, most of the private payers’ beneficiary surveys are conducted as part of a
larger satisfaction survey on all services covered and not speciilcdly on home health
services. The HMOS, in particular, emphasized this practice, ~rting       that they conduct
such sumeys several times a year. Indemnity plans vary more in their use of beneficiary
surveys. One plan conducts quarterly surveys; two other plans survey only when there is a
case manager involved; another does not survey beneficiaries at all. Many payers also
reported using various types of internal audits, complaint monitoring progmms, and provider
reviews, as a means of ensuring that necessary services are rendered and beneficiary abuse
does not occur.

The VA also conducts surveys to monitor beneficiary satisfaction with all covered services.
In addition, VA medical centers have quality assessment committees which sample patients
from their outpatient centers to ask them about the cm.e they receive.

Although we asked about the use of outcome measures, none of the payers report ustig these .
to measure the quality of home health services. A few report they are developing some
measures for future use.

Like Medicare, Most Other Payers Reimburse Providers on a Per Service Basis; HMOS
Use a Capitated Approach

AU of the private indemnity plans pay for services by visitor by hour depending on the
service. Payers often negotiate rates with home health agencies using the Medicare fee
schedule as the basis for negotiation. Rates frequently are determined locally, taking cost-
of-living and other local factors into consideration. One plan pays a flat $40 per visit with a
visit defined as an eight-hour shift from a nurse or aide, one therapy session, or one social
worker visit.

The HMOS negotiate capitated rates with home health agencies. One common pmctice is to
negotiate a capitated rate for nurses and home health aides and hourly payments for therapists


                                               5
or other services. Under this scenario, HMOS pay agencies a flat sum per enrollee with
agencies providing all necessary nursing and aide care to enrollees as needed. Rates are
established based on prior payments and can be adjusted if necessary.

Medicaid agencies generally pay providers on a per-visit or per unit basis.

Agencies are paid by the VA on a per visit basis, either under cent.met or on a “usual and
customary” basis. When the cost of care at home begins to exceed nursing home care, the
VA will authorim placement in an institution.

OTHER PLANS APPROACHES TO CONTROLLING HOME HEALTH
EXPENDITURES ARE llmTERENT FROM MEDICARE’S  “

Other payers differ from Medicare in setting limits on home health benefits; moving more
intensive and special needs patients to targeted progmms; and in their utilization control
mechanisms.

Several Payers Place Limits on Their Home Health Benefits.

Some payers structurally limit their home health benefit through limits, or caps, on the
number of services allowed for any one beneficiary. ~        of the five indemnity plans who
use service caps either cap the number of visits allowed per year or limit the amount of time
per visit (in programs that pay by the hour). Two HMOS lhnit the amount of physical and
occupational thempy services delivered.

The VA limits coverage of home health services to six months for veterans without semice­
connected injuries.

One of the Medicaid agency officials we interviewed specitkally mentioned service caps.
This State limits beneficiaries to 50 skilled nursing and aide visits annually, although
exceptions are allowed.

Other Government Payers Supplement Their Basic Home Health programs with
Targeted Efforts Devoted to the Care of Special Populations.

Our conversations with other government payers yielded information regarding special efforts
to target certain populations and develop special programs to meet their requirements, rather
than relying on their basic home health benefit to add.mss those needs.

Medicaid

Medicaid can cover home health m for needs beyond “part-time” or “intermittent” with
State-only dollars. States can pay for home health services up to the equivalent cost of the
State’s share of a nursing home stay. Long-term home-based care to special populations
(frail elderly, disabled children, AIDS patients) can also be provided under Medicaid waivers
with both Federal and State dollars.


                                                6

Depmttnent of Vetemns Aflaim

The VA has a special “aide and attendant” program for those with severe disabilities,
including vetemns with service-comected spinal cd injuries. ‘IMSprogram provides a cash
benefit to purchase needed services (to pay the salary of an aide, for example); the cash
benefit may be supplemented by skilled services under the home health benefit.

CE4MPUS


For CHAMPUS, patients who need more intensive care than can be provided through its
basic home health benefit can be enrolled in one of three demonstration projects.

  .	   The fmt demonstmtion project identifies patients with catastrophic, complex needs
       and develops home and cmnrmmity-based treatment plans, with case managers helping
       patients gain access to sophisticated, cost-efficient care. Patients sham in the costs,
       with active-duty families paying 20 percent of CHAMPUS’S allowable charge (limited
       to $1000 out-of-pocket) and other families paying 25 percent (limited to $7500).

  .	   The second demonstration project is designed to keep patients at home in lieu of
       hospitalization when such care is cost effective. This demonst.mtion focuses on high-
       cost patient populations including children, hospice patients, and patients with AIDS,
       those who have had transplants, or those who require intense rehabilitation efforts.
       The physician must sign a detailed treatment plan, including an estimate of the length
       of time the patient would spend in an institution if the home health ~     were not
       provided. An itemized comparison of the costs of hospitalization versus the costs of
       home care is required.

  .	   The third demonstration provides fmcial assistance to active-duty families with a
       severely-handicapped family member. The family pays initial costs based on the
       active-duty personnel’s pay gmde; CHAMPUS pays up to $1000 a month. If more
       than one family member qualiiies, CHAMPUS pays all allowable costs for the
       additional handicapped persons. Covered services include nursing, physical,
       occupational and speech therapy, durable medical equipment, hearing aids, and
       schooling or residential care.

In all these demonstrations, the goal is to convert the patient to the regular benefit plan.

This tmnsition would take place when the patient no longer needs the care provided under the

demonstration, when such care is no longer cost effective, or when the “policy holder” is no

longer on active duty. The transition is achieved through following the plan of care,

stabilizing the patient, and training the camgivers. The case management coordinator follows

patients’ progress after they have left the demonst.mtion, to ensure that they are stable and to

prevent rehospitalization.





                                                7

Case Management, Post Payment Utilization Review, and Beneficiary Participation
Through Copayments and Explanation of Benefits (E(Ilk) are Used by Other Payem to
Ensure Appropriateness of Services and Detect Fraud and Abuse.

When asked, about what techniques they used to manage and control utilization of their home
health benefit, respondents indicated that the methods used in any plan depends largely on the
tmns of the contract negotiated with employers, these payers generally reported a variety of
techniques in common use.

   METHODS USED TO CONTROL UTILIZATION OF HOMB HEALTH BENEFITS
                      Medicare and Private Payers


                                        MBDICARB                   PRIVATE PAYERS
                                                                      (Total = 10)
 Case Management                                                             9
 Utilization Reviews                          x                              10
 Copayment/Deductibles                        *                              9
 Explanation of Benefits                                                     6

* Medicare requires a 20 percent coinsurance charge for DME.

Case Management

Almost all payers used some form of ease management to ensurt quality of service and to act
as gatekeeper. Indemnity plans tend to target their case management efforts. For example,
one plan focuses its ease management efforts on its catastrophic and chronic patients.
Another plan hires case managers only in major urban areas to work with local physicians
and nurses with a goal of helping patients access other community serviees. All of the
HMOS use ease managers and primary care physicians to monitor and manage patients’ care.

The VA also reports using ease managers. For that program, because of its link to its
hospital system, the hospital social workers acts as a case manager and is responsible for
reauthorizing care if appropriate. The CHAMPUS also reports using ease managers under
one of its three home health demonstration programs.

U#ili~”on Review

The payers cite a number of utilization review measures including: intensive intemction with
physicians, review of physician referral rates, post-pay edits, prior approval, utilization
proftig combined with physician education, and active fraud units. One HMO conducts an
analysis of the cost of providing care in the home compared to skilled nursing facilities
(SNFS). The patient and family may then choose whether to contribute the difference in
cost, supplement professional care with volunteers, or admit the patient to the SNF.


                                               8
The three Medicaid programs cite a post-payment utilization niwiew measures such as post
pay edits, “exception” reviews where high use cases are identified for close monitoring, and
verification of incoming claims against the plan of care.

Copayment and Deductibles

Almost all of the private payers report that they commonly require some level of fmcial

participation by the beneficiary. TWOof the five indemnity plans mention a coinsurance

charge of 20 percent was common in their plans. Two other indemnity plans contract with a

network of home health providers, and when used, require no copaymen~ otherwise they

also require a copayment. The other indemnity plan requires a copayment after 90 days of

full coverage. The HMOS .cither have no copayment charges at all, or charge some nmnimd        --   --   -

amount (e.g. one HMO charges $5.00 per visit). Two of the four HMOS require either a

copayment or deductible for durable medical equipment only. None of the Medicaid

agencies we interviewed require copayments (although this is not true for all Medicaid

programs).


Explanation of Bene@s

Four of the five indemnity plans provide beneficiaries with an explanation of benefits
(BOBS); one provides them only upon request. The HMOS were mixed in their use of
EOBS. None of the Medicaid programs we interviewed use EOBS.

Rece@icalion   of Need/Reauthorization of Services

Most private payers have a formal progmm in place for reauthori@ion or mcertiilcation of

need. Generally they follow Medicare’s practice of recertification every 60 days.

Medicaid agencies also review cases every 60 days, according to statutory requirements.


The VA has a 12-month review process in place for all veterans receiving home health

benefits under the fee for service program. l’his redetermination process assesses whether

care should continue in the home or another alternative employed. The VA also submits all

cases whose authorizations are to expire in the next three months to VA officials, who

consult with the home health provider, review the veteran’s medical record, and consider

alternatives and costs of alternatives.





                                               9

        POINTS                OF      FURTHER                   ANALYSIS

Due to the rapid incmse in home health care costs and the need to ensure the quality of
services delivemxl in the home, HCFA has initiated efforts to improve Medicare’s home
health benefit. We are supporting HCFA in that effort by providing this report as well as
others focusing on a variety of home health issues.

Despite the small number of other payers that we examined during the course of this review,
their practices could provide potential ideas for reforming or managing Medicare’s home
health benefit. The HCFA might study the merits of some of these approaches as it
determines how best to control utilization and expenditures while assuring the appropriate
delivery of high quality care to Medicare beneficiaries. Among those approaches which
might hold promise are:

         F	    Targeting needs. Rather than a “one size fits all” home health benefit,
               Medicare might wish to channel different patients into different home health
               “progmms” where the benefit could better conform to different patient needs
               and program management. In addition, controls could be designed mom
               effectively.

         b	    Case Management. Case managers might be particularly appropriate for
               certain classes of beneficiaries who are expected to require services over a
               specified period of time (e.g. patients with chronic care needs).

         b	    Beneficiary Participation. The use of EOBS (perhaps on a monthly basis to
               avoid umecessary administrative burden) and imposition of copayments,
               previously proposed in various legislative initiatives, can increase the
               beneficiaries’ stake in their own health care and identify potential
               overutilization, abuse or quality problems.

         �	    Limitations on Coverage. Caps on number of visits allowed each year, or
               some other kinds of limitations, would not only be consistent with the policies
               of some other payers but also with Medicare’s own policies with regard to
               skilled nursing care, hospital benefits, and other categories of service.

Our additional work ongoing and planned in the home health area will assist HCFA in testing
out some of these ideas. Some of the questions that would need to be answered in assessing
the validity of these approaches for Medicare include:

          E	   What have been the patterns of utilization and health care consumption for
               beneficiaries in plans with experience with these approaches, as compared to
               Medicare?

          �    What impact would such changes have on Medicare beneficiaries?



                                               10

          �	   What impact would such changes have on the fiscal soundness of the Medicare
               program?

One of the factors that makes assessment of impacts difilcult is the lack of outcome
measures. While many of the payers we spoke to told us that they are interested in and/or
developing outcome measures for their prugrams, we found they had little to offer on this
subject at the current time. Therefore, we support any efforts by HCFA to address the issue
of developing methods to measure and monitor the quality of home health services.

AMdional OIG Work

The OIG is currently engaged in a home health initiative to examine payments made to home
health agencies on behalf on Medicare beneficiaries. l%is initiative involves the OIG’S
investigations, audit, and evaluation staffs. Among the upcoming products emanating from
this initiative am reports on provider audits and validation of claims; and on the physician’s
role in home health services; an overall assessment of payment made to HHAs and the
relationship of those payments to HHA chamcteristics, beneficiary characteristics, and other
potentially relevant factors.

COMMENTS ON THE DRAFT REPORT AND OIG RESPONSE

The HCFA indicated that the report would be useful in assessing possible changes to the
home health benefit. However, HCFA stated that our report appears to assume that other
agencies are more effective than Medicare in controlling costs. Further, HCFA pointed out
that there are no data in the report comparing the average number of visits or expenditures
per beneficiary. The HCFA speculated that age, health status, and income could explain
differences in utilization if they exist, as well as plan characteristics and benefit management.

We appreciate HCFA’s comments. We recognke that there are no hta in the report
comparing the number of visits or tzxpendituresper berw$a”ary; however, this was beyond the
scope of our inqm”ry. I%e purpose of this report was to describe how selected payers
structure and manage their home health benefit as compared to Medicare. Our analysis
indicated that other payers limit the benefit and use a variety of techniques to control
utilization more than Medicare. TW.etherthese techniques actually result in lower per capita
costs is subject to jlwther analysis, as indicated in the report. It is clear, however, that other
payers huve many more oppom”ties to manage utilizxx”onof the benejit and control costs
compared to Medicare coverage and payment policies for home agencies.

Thefidl text of HCFA’s comments can be found in appendix A.




                                                11

       APPENDIX           A

AGENCY COMMENT S TO THE DRAFI’ REPORT




                A-1
           Wm,.o
  �.*
      ,*
                    +                                                                      Health Care
*.
5	
;
8
  ‘k.
       &                  DEPARTMENT OF HEALTI-I& HUMANSERVICES                            Financing Administration



                                                                       A
                                                                                           Memorandum

                   DATE          I’fu!R27   1995           L JJLA
                   FROM         Bruce C. Wade
                                Administrator v

                   SUBJECT      Office of Inspector General Draft Reports: “The Physician’s Role in Home
                                Health Care,” (OEI-02-94-O0170) and “Home Health Agencies: Alternative
                                Coverage and Payment Policies,” (OEI-12-94-00180)

                   TO           June Gibbs Brown
                                Inspector General


                   We reviewed the subject draft reports which examine home health care provided under
                   the Medicare program. Our comments are attached for your consideration.

                   Thank you for the opportunity to review and comment on these reports.   Please advise
                   us if you would like to discuss our position on the recommendations.

                   Attachment
            Comments of the Health Care Financing Administration (HCFA)
                 on Office of In~ector General (OIG) Draft Reports:
            “The Phvsician’s Role in Home Health Care,” (OEI-02-94-00170)
            and “Home Health Agencies: Alternative Coverage and Pavment
                              Policies,” (OEI-12-94-00180\


OIG Recommendations     on “The Physician’s Role in Home Health Care”
1.	  The HCFA should continue its efforts to change the plan of care to ensure it
     conveys critical information to caregivers and relieves unnecessary burden from
     physicians.

2.	    The HCFA should further communicate its expectations about physician
       involvement and take steps to assure that it is more clearly understood by home
       health agencies and physicians.

HCFA Re,soonse

HCFA defers action on the above recommendations at this time. We are in the process

of examinin g issues related to plans of care and the physician’s role and recognize the

importance of both recommendations.      However, we believe it would be premature to

make immediate changes.


Clearly one of the most important problems facing the Medicare home health benefit is

utilization. OIG is commended for its attempts to better understand the appropriate

role of the physician in monitofig utilization and appropriateness and duration of care.


HCFA has addressed the i-e       of physician involvement through regulations. In the

December 8, 1994 Federal Re@terj HCFA issued a new regulation providing separate

payment for physician care plan oversight services. Reimbursing physicians for care

oversight services should lead to greater physician involvement and prudent utilization of

the home health benefit


HCFA has also established a Medicare Home Health Care Work Group which is

currently drafting revised Home Heal& Agency Conditions of Participation. HCFA is

also developing a Core Standad XSsment          IiMxument, Requirements for the

assessment insfiment     could signifiuntiy impact the information requirements on the

plan of care. The work group expects to develop recommendations after it completes its

research. Until men our operational plans are to continue using HCFA Forms 485 and

486 (Medicare Couection of Medical Information on Home Health Services).


We note that the report recommendations do not address the two main questions listed

on page 3: “Are physicians effectively fulfilling their gatekeeper role in initiating and

monitoring the plan- of care?” “Do physicians rubber stamp the plan of care?” wile the

report recognizes bat there are discrepancies in how physicians and agencies view the

Page 2

physician’s role in coordinating care, it does not address whether physicians are an
effective gatekeeper,   Perhaps the study might more effectively address “Does greater
physician involvement result in a more cost-effective utilization of the home health
benefit?”

Additionally, we would be interested in any specific suggestions OIG may be able to
offer on the following:

         o	   After interviewing both agencies and physicians, does OIG have any
              specific suggestions of ways the plan of care can be changed?

         o	   Does OIG have specific suggestions on how the role of physicians should
              be better communicated?

         o	   Does OIG feel tha~ after talking to agencies and physicians, there is a
              consensus on what the physician role ought to be?

Comments on “Home Health Agencies: Alternative Coverage and Pavment Policies”

The report appears to assume that other agencies are more effective than Medicare in

controlling costs. However, there are no data in the report comparing the average

number of visits or expenditures per beneficiary. While the report identifies other plans’

limits on utilization, there may be other factors, such as age, health status, and income,

that could explain differences in utilization, if they exist.


  We are in the process of develop~g our approach to revitalizing the coverage and
  payment policies for home health agencies. The Points of Further Analysis in this report
‘ raise interesting alternatives that W be considered by HCFA as it formulates its plan to
  revitalize the home health benefits.
